No.

20-6895
IN THE

SUPREME COURT OF THE UNITED STATES
^^^/^'y^?>pETITIONER
(Your Name)
VS.

LUxify)

fymOftQA— RESPONDENT(S)

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
The petitioner asks leave to file the attached petition for a writ of certiorari
without prepayment of costs and to proceed in forma pauperis.
Please check the appropriate boxes:
[ZfPetitioner has previously been granted leave to proceed in forma pauperis in
the following court(s):

Co>Wtf Ot foppffrLS J07C Tttf

SxrCorJD

Q. R CM-lf

□ Petitioner has not previously been granted leave to proceed in forma
pauperis in any other court.
□ Petitioner’s affidavit or declaration in support of this motion is attached hereto.
□ Petitioner’s affidavit or declaration is not attached because the court below
appointed counsel in the current proceeding, and:
□ The appointment was made under the following provision of law:
, or
0fa copy of the order of appointment is appended.

(Signature)

RECEIVED
JAN - 6 2021
>•

OFFICE OF THE CLERK
SUPREME COURT I IS*

X
v-r

UNITED STATES COURT OF APPEALS
FOR THE
SECOND CIRCUIT
At a Stated Term of the United States Court of Appeals for the Second Circuit, held at the
Thurgood Marshall United States Courthouse, 40 Foley Square, in the City of New York, on the
6th day of February, two thousand and nineteen.

United States of America,
ORDER
Appellee,
Docket Nos. 18-1033(L), 18-1618(Con);
18-3546

v.
Raheem Brennerman,
Defendant - Appellant.

James M. Branden moves to be relieved as counsel and requests that the Court appoint
new counsel for Appellant in the above-captioned appeals. The Government does not oppose the
motion.
IT IS HEREBY ORDERED that the motion to be relieved is GRANTED. The appeals
docketed under 18-1033(L) and 18-1618(Con) are removed from the March 6, 2019 calendar and
will be rescheduled in the normal course.
John C. Meringolo, Esq., Meringolo & Associates, P.C., 375 Greenwich Street, 7th Floor,
New York, NY 10013, is assigned as new counsel pursuant to the Criminal Justice Act, 18 U.S.C.
§ 3006A. Attorney Meringolo is directed to review Local Rule 12.2 regarding the filing of Form
B and Local Rule 31.2 regarding procedures for setting the filing dates for the submission of briefs.
For the Court:
Catherine O’Hagan Wolfe,
Clerk of Court

United States Court of Appeals for the Second Circuit
Thurgood Marshall U.S. Courthouse
40 Foley Square
New York, NY 10007
ROBERT A. KATZMANN

CATHERINE O'HAGAN WOLFE

CHIEF JUDGE

CLERK OF COURT

Date: February 06,2019
Docket#: 18-1033cr
Short Title: United States of America v. The Blacksands
Pacific Group,

DC Docket #: l:17-cr-155-2
DC Court: SDNY (NEW YORK
CITY)DCDocket#: l:17-cr-1552

DC Court: SDNY (NEW YORK
CITY)
DC Judge: Kaplan

NOTICE of the APPOINTMENT of CJA COUNSEL

This Court has appointed counsel to represent you in your appeal pursuant to the Criminal
Justice Act. Appointed counsel is:
Name: John C. Meringolo, Esq.
Firm: Meringolo & Associates, P.C.
Address: 375 Greenwich Street, 7th Floor, New York, NY 10013
Phone No: 347-599-0992
Please see the enclosed copy of this court's order of appointment.
Please direct all future correspondence and other communications to your appointed counsel.
Inquiries regarding this case may be directed to 212-857-8575.

